BREDHOFF & KAISER, P.L.L.C.
Bruce R. Lerner
Andrew D. Roth
Douglas L. Greenfield
Roger Pollak
Anne Ronnel Mayerson
Leon Dayan
Devki K. Virk
Robert Alexander
Matthew Clash-Drexler
Abigail V. Carter
Joshua B. Shiffrin
Jenifer A. Cromwell
Ramya Ravindran
Jacob Karabell
Caitlin Kekacs

Attorneys & Counselors
805 Fifteenth Street NW – Suite 1000
Washington, D.C. 20005
(202) 842-2600 TEL
(202) 842-1888 FAX
www.bredhoff.com

Elliot Bredhoff
(1921 – 2004)

Henry Kaiser
(1911 - 1989)

May 24, 2021

Adam Bellotti
Joshua A. Segal
Elisabeth Oppenheimer
Georgina C. Yeomans
April H. Pullium
Dana M. Krohn
——————

Richard F. Griffin, Jr.
Kathleen Keller
Philip C. Andonian
Deva A. Kyle
Of Counsel
——————

Robert M. Weinberg
Julia Penny Clark
Jeffrey R. Freund
Jeremiah A. Collins
Mady Gilson
John M. West
Senior Counsel

Via Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, DC 20543-0001
Re: Ocol v. Chicago Teachers Union, et al., No. 20-1574
Dear Mr. Harris:
We represent respondents Chicago Teachers Union and American Federation
of Teachers (“the Union Respondents”) in the above-referenced matter, which was
docketed May 13, 2021. We write, pursuant to Supreme Court Rule 30.4, to request
a 30-day extension of time in which to file the Union Respondents’ brief in
opposition to the pending petition for certiorari. The brief in opposition is currently
due June 14, 2021. The requested extension would make the brief due July 14,
2021.
This extension request is made because undersigned counsel, who will be
principally responsible for drafting the Union Respondents brief, has evidentiary
hearings in different matters scheduled for June 7, 2021 and June 10, 2021. A 30day extension to and including July 14, 2021 will ensure that the Union
Respondents have sufficient time to analyze fully the arguments raised in the
Petition and prepare a response.

Hon. Scott S. Harris
May 24, 2021
Page 2
Counsel for the Union Respondents has conferred with Counsel for the
Petitioner, and Petitioner consents to this request.
Thank you for your consideration in this matter.
Respectfully submitted,
/s/ Joshua B. Shiffrin
Joshua B. Shiffrin
Counsel for Respondents
cc: Counsel of Record
(via e-mail)

Hon. Scott S. Harris
May 24, 2021
Page 3
CERTIFICATE OF SERVICE
I, Joshua B. Shiffrin, herby certify that on May 24, 2021, I caused to be
served this letter motion for extension of time via electronic mail, with consent for
electronic service only, on the following counsel of record:
Jonathan F. Mitchell
(Counsel of Record)
MITCHELL LAW PLLC
111 Congress Avenue
Suite 400
Austin, TX 78701
(512) 686-3940
jonathan@mitchell.law
Dated: May 24, 2021

/s/ Joshua B. Shiffrin
Joshua B. Shiffrin

